The Department of Justice Office of the Inspector General (OIG) released a report
examining whether and how the Department of Justice (Department) contacts job
applicants’ references when making hiring decisions and whether sufficient policy
guidance exists to guide hiring officials who conduct reference checks.

Although no government-wide requirements exist for reference checking as a part of
the hiring process for federal applicants, the Office of Personnel Management (OPM)
and the Merit Systems Protection Board (MSPB) encourage agencies to check applicant
references for every hiring action. The Department, however, requires hiring officials to
conduct reference checks only for new attorney applicants. In all other respects, the
Department has delegated to individual Department components the authority to set
their own reference checking policies. The OIG review found that reference checking
policies and practices vary significantly across the Department.

For law enforcement positions, the review found that components generally have no
policies requiring reference checks for new applicants, and hiring managers said that
they do not conduct reference checks when hiring most new law enforcement staff.
Instead, the hiring managers assess the skills and aptitudes of new law enforcement
applicants through other means, including background investigations, polygraph
examinations, and logic, cognitive, and behavior tests. These methods, however, are
not designed to gather the performance information that is available from reference
checks with prior employers and others who have worked with the applicant.

For new attorney applicants, the OIG found that not all components are aware of, or
are following, the Department requirement to conduct reference checks in addition to
vouchering, which is a type of suitability determination that examines an applicant’s
honesty and loyalty to the United States. The OIG concluded that vouchering alone is
not sufficient to verify an applicant’s past duties or to evaluate past performance.

For other non-law enforcement positions, the OIG review found that hiring officials
generally conduct reference checks and that they follow OPM and MSPB
recommendations to contact additional references not provided by the applicant.
However, the OIG also found that hiring officials generally do not conduct these
reference checks at the optimal stage of the hiring process, do not obtain applicants’
permission before contacting additional references, and do not document reference
checks using a standard form, as recommended by OPM and MSPB.

Finally, the OIG found that only 3 of the 39 components have written policies providing
hiring officials with clear reference checking guidance that includes position-specific
questions and documentation requirements. Fourteen components have no written
policies, guidance, or forms at all. As a result, the hiring officials surveyed by the OIG
reported uncertainty as to whether reference checks are required for particular
positions, what questions they can ask references, how reference checks are to be
documented, and how those documents are to be retained.

                                            1
The OIG made six recommendations to the Justice Management Division to enhance
the Department’s hiring process by improving the reference checking guidance and the
training hiring managers receive. The Justice Management Division indicated its
agreement with five of the six recommendations. The Justice Management Division
disagreed with the OIG’s recommendation to post on the Department’s intranet both
general reference checking guidance from other government sources as well as official
Department guidance on reference checking.

The report released can be found at the following link:
http://www.justice.gov/oig/reports/2013/e1302.pdf




                                           2
